<html>
<title> - HEARING ON THE NOMINATION OF SEAN O'DONNELL TO BE INSPECTOR GENERAL OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 116-102]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-102

HEARING ON THE NOMINATION OF SEAN O'DONNELL TO BE INSPECTOR GENERAL OF 
                  THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019
                               __________

  Printed for the use of the Committee on Environment and Public Works




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.govinfo.gov
                               ______

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-653 PDF                 WASHINGTON : 2020 











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 30, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                                WITNESS

O'Donnell, Sean, nominated to be Inspector General, U.S. 
  Environmental Protection Agency................................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Carper...........................................    12
        Senator Booker...........................................    15
        Senator Markey...........................................    18

 
HEARING ON THE NOMINATION OF SEAN O'DONNELL TO BE INSPECTOR GENERAL OF 
                  THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Braun, Rounds, 
Sullivan, Ernst, Cardin, Whitehouse, Gillibrand, Markey, 
Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we are going to consider the nomination of Sean 
O'Donnell to be Inspector General of the Environmental 
Protection Agency. Mr. O'Donnell is a very well qualified 
individual and will bring a wealth of experience and expertise 
to this critically important position. I applaud President 
Trump's nomination of such an experienced and dedicated public 
servant.
    The Office of the Inspector General is an independent 
office within the EPA. It is charged with conducting 
independent audits, evaluations, and investigations of agency 
programs and of operations. It is tasked with preventing and 
detecting fraud, waste, abuse, mismanagement, and misconduct, 
relating to the EPA and the U.S. Chemical Safety and Hazard 
Investigation Board. It makes evidence based recommendations to 
promote efficiency and effectiveness in agency programs and 
operations.
    Twice a year, the Office of the Inspector General provides 
a report to Congress profiling its accomplishments. The report 
identifies significant deficiencies at the agency and proposes 
corrective actions.
    Although a part of the EPA, Congress provides the Office of 
Inspector General with funding separate from the agency to 
ensure its independence. The Office of Inspector General's work 
assists Congress and the public in holding the agency 
accountable.
    The EPA's Office of Inspector General currently lacks 
Senate confirmed leadership. Earlier this month, Arthur Elkins, 
who has served as Inspector General since 2010, retired. Mr. 
O'Donnell has the right experience to replace him.
    For nearly 20 years, Mr. O'Donnell has devoted his career 
to public service. Since 2005, he has served as a trial 
attorney for the U.S. Department of Justice. He currently works 
in the Criminal Division Bank Integrity Unit. Previously, he 
worked for the Civil Fraud Section and the Federal Programs 
Branch of the Civil Division. He also was a part of the Civil 
Rights Division's Voting Section.
    He has handled criminal and civil matters, such as those 
relating to financial and Government program fraud and public 
corruption. Mr. O'Donnell is familiar with the use of 
sophisticated investigative and forensic tools. He has managed 
large investment teams of attorneys, of analysts, and of 
investigators. And he has worked with agents and auditors from 
half a dozen offices of inspectors general.
    He has received numerous honors and awards for his work at 
the Department of Justice. In 2017, he received the Attorney 
General's award for distinguished service, the second highest 
honor awarded by that department. That year, he also received 
the Executive Office for United States Attorneys Director's 
Award for superior performance by a--I guess a team of 
litigators, but there is a different word for it. Yes, a team 
of litigators. During the Obama administration, he received the 
Civil Division's Special Achievement Award and numerous annual 
quality service awards.
    Mr. O'Donnell's commitment to public service extends to his 
personal life. From 2011 to 2014, he was the Chair of the 
Ethics Commission for the City of College Park, Maryland. The 
Commission is charged with encouraging high ethical standards 
of conduct by city officials and employees.
    Kyle Cohen, who is the United States Assistant Attorney for 
the Middle District of Florida, worked with Mr. O'Donnell when 
he was an attorney with the Department of Justice's Civil Fraud 
Division. He wrote in support of this nomination. He said, 
``Due to his relentless commitment in rooting out fraud, waste, 
and abuse of taxpayer dollars, Sean is an ideal candidate for 
an Inspector General's position.''
    Mr. O'Donnell's background and experience make him an ideal 
candidate to serve as the Environmental Protection Agency's 
Inspector General, and I look forward to hearing Mr. 
O'Donnell's testimony today and to moving his nomination 
expeditiously through the confirmation process.
    I would now turn to Ranking Member Carper for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman, and thanks 
for holding today's hearing on our nominee, Sean O'Donnell.
    My only regret, Mr. O'Donnell, in your nomination is that 
it did not come about a year sooner. My staff is going to give 
me the name of the Acting, who has just retired, I think the 
Chair just mentioned, Arthur Elkins, who was our Acting IG for 
a while. And we appreciate his service.
    We are glad that you have been nominated by the 
Administration. I want to thank your family, your wife, four 
children. Is that all the children you have, just four? OK.
    [Laughter.]
    Senator Barrasso. Thirteen, 11, 9, and 7.
    Senator Carper. That is every 2 years, then.
    Senator Barrasso. Pretty close.
    Senator Carper. That is pretty good. And is that a sister-
in-law, over your right shoulder? Is that your sister-in-law? 
We are all glad that you are here. Thank you to your wife and 
children for sharing you with our country and your willingness 
to share--and you specifically--with the Environmental 
Protection Agency in the oversight role that, if confirmed, you 
will play.
    The mission of the EPA is to protect human health and our 
environment. Our country relies on EPA to safeguard communities 
from hazardous waste, from toxic chemicals, from greenhouse gas 
emissions, and other harmful air and water pollutants. EPA's 
dedicated career staff works every day to ensure that we have 
clean air, safe drinking water, and a healthy environment.
    However, in order for EPA to protect all of us in this 
country, the agency itself must be protected from the kinds of 
misconduct that can impair its important mission. This 
responsibility falls in no small part to the EPA's Inspector 
General.
    As EPA's principal oversight official, the IG is charged 
with detecting and preventing fraud, preventing waste, abuse, 
mismanagement, and misconduct across EPA and the U.S. Chemical 
Safety and Hazard Investigation Board. The Inspector General is 
a watchdog for the American people and provides an independent 
voice of integrity.
    Unfortunately, as we know, the EPA has been without a 
confirmed Inspector General for more than a year, way too long. 
So needless to say, we are pleased to be able to consider your 
nomination today, Mr. O'Donnell.
    If confirmed, you will have a big job ahead of you. We want 
to be supportive.
    The Office of Inspector General has completed some valuable 
audits of EPA's programs and activities in recent days. Just 
last month, the IG released a report evaluating EPA's efforts 
to ensure that public drinking water systems notified the 
public when unsafe levels of water contamination are detected, 
as required by the Safe Drinking Water Act. As a result of that 
audit and evaluations, EPA has agreed to undertake recommended 
improvements to bolster the systems that protect Americans' 
drinking water.
    Under the Trump administration, however, we have seen far 
too many breaches of ethics and abuses of authority among the 
political leaders at EPA. I have read too many stories, too 
many headlines, too many investigations that more than, 
frankly, I want to count. Many ethics violations committed by 
former Administrator Scott Pruitt have been well documented, 
but those violations bear repeating today, and I will do so 
briefly.
    These include Mr. Pruitt's acceptance of below market 
rental housing from the wife of a lobbyist with business before 
the EPA, Mr. Pruitt's use of his position to try to acquire a 
Chick-Fil-A franchise and other employment opportunities for 
his wife, and Mr. Pruitt's practice of using a security detail 
to run personal errands.
    More recently, former Assistant Administrator Bill Wehrum 
had his deputy appear to have helped reverse EPA's position in 
a power plant enforcement case involving their former industry 
clients. Senator Whitehouse, House Energy and Commerce Chairman 
Pallone, and I referred this matter to the Office of Inspector 
General in February of this year. In May and July of this year, 
Senator Whitehouse and I provided additional referrals after we 
uncovered more evidence.
    In addition to detecting and preventing waste and fraud 
within the EPA's programs, it is critical that one of your 
highest priorities as EPA IG will be to ensure that these kinds 
of flagrant violations of public trust are documented and that 
those responsible for the violations are held accountable, even 
when they leave the agency.
    Regrettably, over the past 2 years, many of my colleagues 
on this Committee and I have been frustrated by what seems to 
be the Office of Inspector General's reluctance or even refusal 
to investigate ethics breaches and abuses of powers by EPA 
political leadership. In particular, last year, after Mr. 
Pruitt resigned, I was very discouraged to learn that the 
Office of Inspector General halted multiple ongoing 
investigations into allegations of abuse, and decided their 
efforts were inconclusive because they could not interview Mr. 
Pruitt. To me, that sends the wrong signal to the agency and to 
our country that public servants at the highest levels can 
avoid accountability for their misconduct simply by leaving the 
job before an investigation is completed.
    The whole truth really does matter. The next Inspector 
General, which I hope will be you, must do all that you can do 
to ensure that the whole truth is revealed, that those 
responsible for misconduct will face appropriate consequences 
for their actions.
    It is also important for the next Inspector General to 
understand that part of the job is to protect the integrity of 
internal oversight functions within EPA. Across the agency, 
there are offices with responsibility to support and enforce 
the agency's ethics and other rules. However, these offices 
cannot fulfill their oversight responsibilities when the 
subjects of that oversight are their bosses who wield power 
over their positions. When this happens, the Office of 
Inspector General is responsible for ensuring that oversight is 
indeed conducted.
    So, Mr. O'Donnell, we look forward to hearing your views on 
these matters. Your experience at the Department of Justice 
indicates that you have the ability to doggedly pursue 
financial crimes and public corruption investigations. We hope 
you are ready to use those skills to investigate corruption at 
EPA and pursue investigations wherever the facts may lead.
    Thank you. Good luck.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Thank you for 
giving me the opportunity to introduce to the Committee Sean 
O'Donnell.
    Thank you, Chairman Barrasso and Ranking Member Carper.
    Sean O'Donnell is a resident of College Park, Maryland. 
That is where the University of Maryland's principal campus is 
located. I don't know that you get too many quiet nights, but 
it is nice to have a Marylander who is here.
    Mr. O'Donnell has served as a civil servant for nearly 20 
years, most recently as a trial attorney at the Criminal 
Division of the Department of Justice. He has handled some of 
the more challenging matters under the Department of Justice. 
He handled election issues from 2005 through 2008. In 2013, he 
handled the residential mortgage backed security predatory 
investigations. So he has widespread experience in regard to 
civil matters and commercial and governmental fraud corruption 
and national security matters which will stead him well in the 
position he has been nominated to.
    I want to point out a couple of other things about his 
background that really impress me. Because local politics can 
be extremely challenging. Mr. O'Donnell served as chairman and 
commissioner on the City of College Park's Ethics Commission, 
and also on the City of College Park's Redistricting 
Commission. Why anybody would want to serve on that, I don't 
know. But he has taken on some very challenging issues in his 
career. He is well qualified, as both the Chairman and Ranking 
Member have pointed out.
    It is really important that we have a confirmed, 
experienced, independent Inspector General for the EPA. We 
desperately need to have that.
    I want to thank Mr. O'Donnell, I want to thank his family, 
because the family very much is a part of this, for his 
willingness to step forward and serve in this position.
    Senator Barrasso. Thank you very much, Senator Cardin.
    Now I would like to welcome our nominee to the Committee. 
Sean O'Donnell, nominee to be the Inspector General for the 
Environmental Protection Agency.
    I want to remind you that your full written testimony will 
be made a part of the record. I look forward to hearing your 
testimony.
    I don't know if you want to start by introducing your 
family to the Committee and then proceeding with your 
testimony.

 STATEMENT OF SEAN O'DONNELL, NOMINEE TO BE INSPECTOR GENERAL, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. O'Donnell. Chairman Barrasso, Ranking Member Carper, 
and distinguished Members of the Committee, thank you for the 
opportunity to appear before you today as the nominee for the 
Inspector General of the Environmental Protection Agency and 
the Chemical Safety Board. It is a profound honor.
    I would also like to thank Senator Cardin for his 
introduction and his acknowledgement of the many sleepless 
nights we have in College Park due to the proximity of the 
University of Maryland.
    [Laughter.]
    Mr. O'Donnell. I am also grateful to the President and to 
Administrator Wheeler for the confidence they have shown in me 
for this important position. I am also grateful for the time 
the members of this Committee and their staff made to meet with 
me as part of my nomination.
    I would like to thank my family, friends, and colleagues 
for the support they have shown. With me today is my wife of 
nearly 25 years, Dr. Cynthia Finley. I have known Cynthia since 
seventh grade, when we first met in first period English class. 
Actually, I think it might have been second period. You remain 
the smartest, most wonderful person I know. And you have made 
me the luckiest.
    Also here with me today are my four children, Brigid, 
Fintan, Molly, and Aine. You bring so much joy to my life, and 
I am incredibly proud of each of you.
    Also joining me is my father, Sean; and his wife, Andrea; 
and my sister-in-law, Cheryl. Thank you for coming.
    Being here today represents a milestone in a long journey. 
I grew up far away from Washington, DC, in the northwestern 
part of Washington State. I am the proud grandson, son, 
brother, and uncle of four generations of O'Donnells who have 
worked at the Port of Seattle. Growing up in a family of 
stevedores instilled in me the value of hard work and plain 
speaking.
    I have always believed that public service is a high 
calling. This is why, 15 years ago, I jumped at the opportunity 
to work at the U.S. Department of Justice and to represent the 
United States of America. During my time in the department, I 
have had the privilege to work on some of the most interesting 
and complex matters facing our Nation.
    But what I have always found most rewarding is seeing how 
my cases can make the lives of our fellow Americans better. One 
of the first matters I handled at the department was United 
States v. Euclid, a Voting Rights Act case. Despite having a 
significant African American population, the city of Euclid had 
never elected an African American preferred candidate.
    My colleagues and I worked tirelessly to vindicate the 
voting rights of black voters, developing a compelling case by 
following the facts and listening to local voters, candidates, 
and government officials.
    The results speak for themselves. Since the United States 
prevailed, the city has elected a diverse and far more 
representative city council. When you see the good that 
government can do, it washes away the cynicism that seems so 
prevalent nowadays.
    I have always strived to lead investigations in a fair, 
objective, and thorough manner, going where the facts lead no 
matter how uncomfortable the results or how difficult the task. 
For example, in 2013, I joined the Residential Mortgage Backed 
Security Working Group, which was formed to bring some measure 
of justice to those who had participated in one of the biggest 
frauds in our history.
    To do so, we used creative statutory and investigative 
tools to dive deep into highly complex securities. At its 
height, our investigative team consisted of approximately 30 
attorneys, agents, and analysts from a variety of agencies, 
including two inspector general offices.
    In less than 2 years, our team reviewed nearly 10 million 
documents, analyzed gigabytes of data, and interviewed scores 
of individuals. We untangled a mess of deals to uncover a 
pattern of making false and misleading statements about the 
quality of the mortgage loans underlying the securities. And we 
ultimately held that investment bank to account with a multi-
billion dollar fine and a statement of facts that clearly and 
plainly set out the basis for that fine.
    In my work at the Department of Justice, I often have 
occasion to ponder Justice Holmes' words in Rockland Island, 
that people must turn square corners when dealing with the 
Government. For me, it has come to have two meanings. First, it 
means that the Government depends on the integrity and honesty 
of those who deal with it. It also means that we in the 
Government must be fair and honest when we deal with the 
public.
    I firmly believe that the best way we instill confidence in 
those we have the honor of serving is by conducting our 
business with integrity. In my experience, the OIG auditors, 
agents, and attorneys I have had the privilege of working with 
exemplify this commitment to integrity. To a person, I have 
found that they share a passion for fighting waste, fraud, 
abuse, and mismanagement. And I have found that they are 
equally committed to providing independent and objective 
oversight of their departments and agencies.
    For this reason, I come before you today seeking your 
support to become the Environmental Protection Agency's 
Inspector General. The EPA serves a critical role as steward of 
our environment. To this end, it has been entrusted with the 
most important statutes enacted to improve the quality of our 
lives and protect our public health. The result of the EPA's 
work is evident in the air we breathe and the water we drink. 
Every year, my children and I see the impact of EPA's work in 
our own neighborhood, as we fish in the Anacostia River and we 
see the water become cleaner and the fish healthier.
    It would be an honor to lead the EPA's Office of Inspector 
General as it contributes to the agency's important mission. If 
confirmed, I will strive to continue the office's work in 
eliminating waste, fraud, and abuse. I will also focus the 
office's efforts to promote the efficient and effective use of 
the authority you have granted the EPA. I will do so while 
maintaining a positive relationship with you and the rest of 
Congress.
    Thank you for the opportunity to appear before you today. I 
sincerely appreciate your consideration of my nomination, and I 
look forward to answering your questions.
    Thank you.
    [The prepared statement of Mr. O'Donnell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. Thank you so very much. Congratulations 
again. Welcome to your family.
    Throughout this hearing and with the questions for the 
record, the Committee members are going to have an opportunity 
to learn more about your commitment to public service for our 
great Nation. I would like to ask that throughout this hearing, 
you please try to respond to the questions, and then 
afterwards, questions for the record which may be posed in 
writing after the hearing has ended.
    I have to ask the following questions that we ask of all 
nominees on behalf of the Committee. Do you agree, if 
confirmed, to appear before this Committee or designated 
members of this Committee and other appropriate committees of 
the Congress and provide information, subject to appropriate 
and necessary security protection with respect to your 
responsibilities?
    Mr. O'Donnell. Yes, Senator.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Mr. O'Donnell. Yes.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Mr. O'Donnell. No.
    Senator Barrasso. I would like to begin now with my round 
of questions.
    Under Federal law, the qualifications to be Inspector 
General are stated as follows. An Inspector General shall be 
appointed solely on the basis of integrity and demonstrated 
ability in accounting, auditing, financial analysis, law, 
management analysis, public administration, or investigations.
    Now, your distinguished record indicates that you meet all 
of these requirements. Can you just talk a little bit about 
maybe a few real life examples of how you have demonstrated 
these qualities?
    Mr. O'Donnell. Senator, two come to mind. First, with AUSA 
Cohen, I helped lead an investigation into a number of 
servicers of reverse mortgage loans. As you might know, reverse 
mortgage loans are an important financial instrument that 
allows elderly Americans to access equity in their homes, while 
allowing them to stay in place.
    Based on complaints from whistleblowers and information we 
developed separately, we undertook a thorough investigation 
that uncovered a systemic pattern of misrepresentations made to 
FHA in the course of the servicing of those loans, costing the 
American taxpayers tens of millions of dollars. We were able 
to, in my time, resolve with a number of corporations, 
returning $130 million to the Treasury. But what I find is more 
important is that we ended up making significant impact on the 
industry. What we were told is that servicers were being more 
mindful of the obligations that they had in servicing these 
loans.
    The other one, Senator, is one that is very recent. I 
helped lead an investigation of allegations of fraud involving 
$2 billion of loans to the Republic of Mozambique. The Republic 
of Mozambique is one of the ten poorest countries in the world. 
It had come to the international capital markets seeking 
capital for what appeared to be maritime related projects.
    Using a number of creative investigative tools, and really 
just sort of a dogged pursuit of truth, what we uncovered is 
alleged in an indictment that we unsealed in January, which 
alleges that a UAE based maritime company corrupted Mozambiquan 
officials with bribes of over $100 million in order to get 
business in the Republic of Mozambique. They did so by 
inflating the prices of the vessels, as was alleged in the 
indictment. But what we also discovered, again as alleged in 
the indictment, is that bankers of Credit Suisse were taking 
bribes, nearly $50 million in bribes.
    The result is, I think, clear, the Republic of Mozambique 
thus far has defaulted on over $700 million in loans. The 
International Monetary Fund has suspended lending. The Republic 
of Mozambique has suffered the two terrible storms. And the 
harm that they have suffered as a result of this fraud is 
patent.
    I can say thus far, the three bankers have plead guilty in 
the United States District Court in the Eastern District of New 
York. My colleagues up in Brooklyn are trying presently one of 
the individuals with the UAE based shipbuilder, unfortunately--
or fortunately, because I am here--I could not join them, but I 
wish them the best of luck.
    Senator Barrasso. It is interesting. You have had a long 
and distinguished career in public service, no question about 
it. I was going to ask you the main reasons why you want to go 
and be the Inspector General at EPA, and maybe think about what 
the biggest challenges may be at that agency, quite different 
than some of the things you have really been successful at.
    Mr. O'Donnell. I think what I have seen in my experience 
with the IG is across the board a real commitment to fighting 
waste, fraud, and abuse, and mismanagement, and the willingness 
to use tools creatively, whether forensic, statutory, 
investigative, to help not just fight waste, fraud, and abuse, 
but help better government.
    I think that the issues facing all IGs include the 
efficient use of resources and targeting priority issues, 
working with the agency in a constructive manner to help that 
agency, if you will, sharpen its mission. And of course, with 
respect to the EPA, its important mission with respect to the 
environment and public health.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Let me start off by saying I am pleased to 
hear you mention, not once, but several times, fighting waste, 
fraud, and abuse. We have just learned that the budget deficit 
for the fiscal year which concluded--oh, gosh, just days ago--
was about $850 billion. We are told that the budget deficit for 
the new fiscal year is expected to reach $1 trillion, saddling 
your children, my children, grandchildren, with a lifetime of 
debt.
    One of the things that we seek to do on this Committee and 
the other committee I serve on, Homeland Security and 
Governmental Affairs, we work with GAO, the Government 
Accountability Agency, we work with all the Inspectors General 
to try to figure out how to govern this country in ways that 
are more cost effective and fair. So we welcome your passion 
for doing that, and believe me, the passion is felt on this 
side of the dais as well.
    We know from EPA's Inspector General's semi-annual report 
that former Administrator Scott Pruitt was under IG 
investigation due to multiple allegations of misconduct. 
However, when Mr. Pruitt resigned, the IG investigations into 
his misconduct were declared inconclusive because he left the 
agency before investigators could interview him. And they 
closed most of the cases.
    In my view, this sends the message that our Nation's most 
senior political officials can avoid accountability just by 
quitting before the IG has finished its work. Mr. O'Donnell, 
will you just briefly tell us how you would manage an 
investigation where the high level appointee who is the subject 
of the investigation leaves the agency before they can be 
interviewed? Would you give us your assurance that you will 
follow through on such investigations and reach the best 
conclusion you can, using other evidence available to you, 
regardless of the subject's attempts to avoid interviews?
    Mr. O'Donnell. Absolutely, Senator. I share your 
frustration. I think we have all seen that across the board, 
where it seems as if individuals can avoid scrutiny by leaving.
    I think one of the hallmarks of my career has been a 
stubborn refusal to stop investigating, even when things get 
hard. I firmly intend to continue that, using the tools 
available to the Inspector General's office.
    Senator Carper. Thank you. Second question. There are 
offices within EPA, as you know, that are supposed to do 
oversight of the agency's ethics and other rules. However, when 
subjects of this kind of agency oversight are political 
appointees who oversee the offices that conduct the oversight, 
the system sometimes breaks down.
    For example, almost 8 months ago, along with Senators 
Whitehouse and Markey and Congresswoman Eddie Bernice Johnson, 
I asked EPA's scientific integrity official to investigate 
whether EPA's political officials had violated EPA's scientific 
integrity policy when they suppressed the release of an EPA 
study that says formaldehyde causes leukemia.
    I would ask, Mr. Chairman, unanimous consent to place into 
the record a copy of that letter at this time.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Carper. Thank you.
    We have not received an answer yet. And we don't know why. 
But it could be because the EPA's scientific integrity official 
is being told by the very same public officials that she is not 
allowed to investigate what they have asked her to investigate.
    Would you assure us that as Inspector General, you will 
take up the appropriate oversight activities that are normally 
tasked to other EPA offices when those offices do not have the 
independence necessary to fulfill their responsibilities?
    Mr. O'Donnell. Senator, in the situation that you 
described, I think it is entirely appropriate for the Inspector 
General to investigate mismanagement and abuse of authority, 
such as if an individual tasked with independent oversight is 
being ordered in some form or fashion to discontinue that. That 
would certainly be something I would be interested in looking 
at. If there are specific situations such as the one you 
mentioned, Senator, if confirmed, I am happy to go back to the 
career staff and discuss that with them and then meet with you 
and your staff again.
    Senator Carper. Thanks so much. And my third question is, 
it will be, I think a year tomorrow, that Senator Udall and I 
wrote to the Acting Inspector General to request that he 
initiate an audit into the EPA's proposal to repeal air 
emission standards for polluting glider trucks. We still have 
not seen the results of that audit. Perhaps because the White 
House Office of Management and Budget has been refusing to 
respond to the Acting Inspector General's request for 
information, in violation of the Inspector General Act of 1978.
    The Acting Inspector General informed Congress of the OMB's 
refusal to cooperate in April of this year, as he was also 
required to do.
    And Mr. Chairman, I just want to ask unanimous consent to 
put into the record a copy of that letter at this time, please.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Carper. I would ask my question of Mr. O'Donnell, 
would you commit to us that you will promptly inform this 
Committee any time that political appointees at the EPA or the 
Chemical Safety Board or any other part of the Executive Office 
of the President that you are aware of refuse to provide you 
information or attempts to stonewall an audit or investigation?
    Mr. O'Donnell. Senator, I believe not only is the Inspector 
General obligated to do it, but I think that as provided 
independent oversight, I would feel an obligation to do exactly 
that.
    Senator Carper. Thank you so much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    We discussed this in my office. In the short time I have 
been here--for me it always comes back to how you pay for 
things in a place like this. We have now gotten used to 
trillion dollar deficits; we shrug it off. I am on the Budget 
Committee, and I know that is soon going to approach $1.5 
trillion 5, 6 years down the road. So in any agency, whatever 
one can do to try to improve that, it is important.
    For me, in your role, I would like your opinion on where 
would a few places be that, from your depth of experience and 
what you see looming in terms of your responsibilities, a 
couple, three things where you would put time and effort.
    Mr. O'Donnell. Senator, I have seen that the office 
recently concluded a False Claims Act settlement, working 
collaboratively with other agencies on a grant matter. Just 
given my experience with the False Claims Act, Senator, I can 
tell you that that is exactly the sort of thing that I think is 
an important tool in fighting waste, fraud, and abuse, really 
returning money that was improperly given, returning that money 
to the taxpayers.
    So I would see going forward the continued collaboration 
with other agencies, including the Department of Justice, and 
using tools like the False Claims Act, to make sure that the 
EPA is not defrauded with respect to grants or contracts. I 
think that is an important area of the ability to fight waste, 
fraud, and abuse.
    And then of course, Senator, with respect to the audits, 
one focus of audits is always, I think, can be the efficient 
use of taxpayer dollars by the offices and entities in the EPA.
    Senator Braun. Thank you. I would be derelict if I didn't 
ask you about what has beset my constituents more than any 
other aspect of EPA rules and regs, would be Waters of the U.S. 
As I saw that evolve, and I am one that is a staunch 
conservationist, and I believe--I always cite the fact that I 
remember so vividly as a teenager when the Cuyahoga River 
caught on fire. So we have really come so far in a short period 
of time.
    When I was home for a recess visit, I had, I think, three 
small farmers in one small restaurant corner me after I was 
done eating, I knew the three of them, and telling me that 
they, in just doing basic, routine ditch maintenance, and 
ditches that generally have no water in them, other than a few 
months out of the years, and we are in a rainy part of the 
country. Waters of the U.S. looks to me like it is a confluence 
of the Army Corps of Engineers, the EPA, and then the in-State 
enforcement agencies. Sadly, in this case, coming from a place 
like Indiana, which is normally pretty sane in all the things 
that it does, it would have been the Department of Natural 
Resources and the Indiana Department of Environmental 
Management that was out of kilter with, really, I think, what 
they were supposed to be doing.
    Do you feel it is within your purview being able to not 
only interface with the Army Corps of Engineers, but especially 
the agencies that are generally responsible for implementing? 
And I know we have gone through a rule change, and many of my 
constituents and farmer friends are anxious to see that 
actually improve.
    What would your opinion be in terms of your role to 
interface with some of the State agencies, that is where you 
really feel the impact in some cases of overreaching 
regulations here?
    Mr. O'Donnell. Senator, in my previous work, both on 
residential mortgage backed securities investigations and going 
into the False Claims Act work generally, I always felt we were 
our most effective when we were working with our State 
partners. With the RMBS investigations I worked with the State 
of California, the State of New York, the State of Maryland, 
and I believe the State of Illinois. And then that 
collaborative effort really allowed us to, I think, make a 
better case because we were not just responsive to the concerns 
inside the beltway, but concerns of the States.
    So I think to the extent that it is available to the IG's 
Office of the EPA, I think it would be extremely useful.
    Senator Braun. When you hit the ground running, I would 
appreciate it if you might keep in mind that particular issue 
in Indiana, and maybe check into it and get back with me to see 
what you think.
    Mr. O'Donnell. Thank you, Senator, yes.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    I just want to start by thanking Mr. O'Donnell's family for 
your support of his long tenure as a civil servant. Some serve 
this country in uniform by picking up a rifle, others serve by 
being a public servant, and that is just as honorable and just 
as giving. So thank you for supporting him in his work. He does 
very important work, as you can see by having all of us here 
today.
    Welcome, Mr. O'Donnell.
    Mr. O'Donnell. Thank you, Senator.
    Senator Duckworth. Thank you for meeting with me yesterday. 
I was reassured to hear your thoughts on the importance of an 
independent Inspector General and whistleblower protections.
    In July of this past year, July 11th, the Assistant 
Administrator for Enforcement and Compliance published a memo 
indicating a new approach to compliance, which would end a 
longstanding practice at the EPA of inspections that are 
unannounced. I am concerned that this new, no surprise policy 
will hinder EPA's ability to protect public health.
    Mr. O'Donnell, if confirmed to be EPA's Inspector General, 
would you agree with this new approach to stop all unannounced 
activities of the EPA OIG personnel? In other words, would you 
adopt a no surprise policy to guide OIG investigations?
    Mr. O'Donnell. Senator, I am not privy to what was the 
reason for that decision. I would be interested, if confirmed, 
to meet with staff and understand why it is they thought it 
important to have a no surprise audit.
    Senator Duckworth. I think it is an agency-wide memo. I am 
asking, would you continue it, would you comply with that for 
the OIG office in terms of this policy of no surprise 
inspections?
    Mr. O'Donnell. I think as an independent office, it would 
be inappropriate for the EPA to dictate to the Office of 
Inspector General how they would conduct their audits. So with 
respect to any limitation on the ability of the IG to conduct 
those audits, I think again, I would confer and understand the 
scope of this new policy of which you speak. But it seems to me 
to be counterproductive to the role of the Office of Inspector 
General.
    Senator Duckworth. Thank you. I find your answer 
reassuring.
    If confirmed, would you commit to investigate what 
motivated this change in policy, and whether EPA conducted a 
rigorous risk analysis of this no surprise policy? And finally, 
whether EPA developed this policy in consultation or 
partnership with regulated entities.
    Mr. O'Donnell. Again, Senator, I am not privy to the 
decisionmaking or the applicability of that rule. But what I 
will most certainly pledge is, if confirmed, to get better 
understanding of this rule, its applicability, and then 
determine whether it is appropriate to do an audit to determine 
if it is in fact an effective use of the audit ability of the 
agency.
    Senator Duckworth. Will you follow up with my office?
    Mr. O'Donnell. Absolutely.
    Senator Duckworth. Thank you.
    Laws aren't worth the paper they are written on if agencies 
fail to enforce them. Region V, which I am proud to say is 
based in my home State of Illinois, is historically one that 
has led the Nation in enforcement. Enforcement begins with 
inspections. That is why I strongly support the EPA OIG's 
ongoing investigation into the alarming decline in EPA 
enforcement actions. In addition to enforcement, I am also 
concerned that the rate of EPA inspections is also dropping.
    If confirmed to be EPA's Inspector General, will you commit 
to expanding the ongoing enforcement investigation to include 
why inspections have also dropped nationwide under the Trump 
administration?
    Mr. O'Donnell. Senator, I am pleased to hear that this has 
already started. If confirmed, I will pledge to meet with those 
auditors and understand the scope of their audit and I think if 
appropriate, most certainly to expand it.
    Senator Duckworth. Thank you. During our meeting yesterday, 
we discussed an issue facing an environmental justice community 
in Sauget, Illinois. My constituents are exposed to harmful 
emissions from a trash incinerator that accepts wastes such as 
propellants and explosives, reactive metals and poisonous 
materials for disposal. That is why the EPA, under the prior 
Administration, put in place rigorous requirements for 
monitoring and controlling heavy metal emissions from this 
plant.
    The current Administration took an opposite approach, 
providing the polluters with access to the highest levels of 
leadership at EPA prior to dramatically weakening pollution 
control requirements on the plant. Unfortunately, this scenario 
is not an isolated incident, and my constituents in Illinois 
fear that similar political interference is harming the 
bipartisan Renewable Fuels Standard program, and letting plants 
that emit ethylene oxide off the hook.
    If confirmed, will you commit to investigate this plant 
specifically, and this culture of political interference 
generally at EPA?
    Mr. O'Donnell. Senator, I understand that you sent a letter 
on this, I think, and I have reviewed it last night. What I 
pledge, Senator, is to, if confirmed, go to my colleagues at 
the Office of Inspector General, understand our position, and 
then get back to you as soon as possible.
    Senator Duckworth. Thank you for your answers. I look 
forward to working with you upon your confirmation.
    Mr. O'Donnell. Thank you, Senator. Me, too.
    Senator Duckworth. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. O'Donnell, thank you for your service and for that of 
your family. I always tell my wife and kids that it is a team 
effort, as Senator Duckworth was mentioning. Your kids are also 
really well behaved in this hearing. So that is also great. 
Thank you to the family for their willingness to let their dad 
do these important but sometimes time consuming and difficult 
jobs.
    I am looking forward to supporting your confirmation. I 
think you have a really strong background for this important 
position. It is a big mission, the OIG. I am just looking at 
it.
    One of the things that it focuses on is misconduct relating 
to the EPA. I want to tell you that during the 8 years of the 
Obama administration, my State lost confidence in the EPA in a 
huge way. A lot of it dealt with misconduct that really never 
was looked into. Some of it is going to be bygone; the former 
Administrator, Gina McCarthy, came up to Alaska, essentially 
consulted my constituents in the national media interview in a 
very demeaning, arrogant way, literally forgot that she 
actually represents the people and is supposed to serve the 
people.
    Senator Braun talked about the WOTUS rule. I think as 
Inspector General--you are a good lawyer. When 31 States, 
Democrat led States, Republican led States, are suing the EPA, 
it is kind of time for a pause, right?
    But let me talk about a couple other ones during that era 
of lawlessness at the EPA. There was a Supreme Court case 
called EPA v. Michigan. Gina McCarthy was actually on the Bill 
Maher show. She was talking about it, and she said, oh, we 
think we are going to win. That is fine. We have good lawyers. 
They didn't win, they lost six to three.
    But then she said this, ``Even if we don't win, it was 3 
years ago that we implemented this rule,'' and I am quoting 
her. ``Most of the companies and other people subject to this 
rule are already in compliance, have made investments, and they 
are going to have to catch up. So we are still going to get at 
this issue of toxic pollution from these facilities.''
    Wow. You are a lawyer. Do you think that that kind of 
statement on national TV is the EPA showing the respect for the 
rule of law?
    Mr. O'Donnell. Senator, I don't have HBO, so I have not 
seen that.
    Senator Sullivan. But I am quoting from the Administrator. 
I am sorry, I don't watch the show either, but it was her on 
the show essentially saying, I don't care what the Supreme 
Court said, because these suckers that were already making 
investments, are going to have to pay up anyway.
    What do you think of that statement? You are an attorney. 
You are going to be the OIG. Is that an appropriate statement 
for the Administrator of the EPA to say on national TV? And 
does it show respect for rule of law? It is a pretty easy 
question.
    Mr. O'Donnell. Yes, Senator, what I would say is, and this 
is something we exercise at the Department of Justice all the 
time, is that the Department of Justice--I as a criminal 
prosecutor have tremendous power. I can limit someone's 
liberty, at least for a short time.
    Senator Sullivan. Correct.
    Mr. O'Donnell. But I need to exercise that authority----
    Senator Sullivan. What signal does it send to Americans, 
the head of an agency is really saying, I don't care what the 
Supreme Court--but even if we don't win, it was 3 years ago, 
most of them are already in compliance, and investments have 
been made.
    Tell me what you think about that. It is actually an 
important question. Remember, your job is part of misconduct. 
Is that an appropriate statement by the head of the EPA?
    Mr. O'Donnell. Again, I didn't see the exact context, so I 
hate to comment, rush to judgment, and give you what I think is 
called nowadays a hot take. But I do believe that we should be 
judicious in our words and in our use of authority, because it 
is even the perception of a lack of integrity that harms the 
exercise----
    Senator Sullivan. Maybe we can follow up in a--take a look 
at it, and I would like your views for the record on that.
    Let me ask one final question. So in 2013, in a part of my 
State called Chicken, Alaska, we had placer miners who were out 
mining legally. And the EPA came to enforce what they believed 
was a Clean Water Act violation. They showed up in SWAT gear, 
assault rifles, body armor, ATVs. No notice to local law 
enforcement. And they scared some people in my State quite a 
lot. It looked like a small invasion. No violations were ever 
found, by the way.
    This could have been a bad situation. A lot of Alaskans 
like to exercise their Second Amendment rights, when people 
show up on their property with assault rifles and body armor.
    I have legislation that would disarm the EPA and require 
the EPA to give notice to local law enforcement when they are 
going to do these kinds of enforcement actions, essentially a 
military enforcement action.
    If confirmed, will you sit down with me and take a look at 
this action, which I am not sure the OIG ever took a look at? 
But it is something--granted, it happened a while ago. But we 
don't want that kind of thing to happen again. And can I get 
your commitment to take a look at that situation that occurred 
in my State that was very disturbing and was not supported by 
the people of Alaska?
    Mr. O'Donnell. Senator, if confirmed, I absolutely will be 
happy to meet with you and learn more about this situation and 
whether it is an appropriate area for the IG to investigate.
    Senator Sullivan. And what we can learn from it in terms of 
the EPA going forward.
    Mr. O'Donnell. Absolutely.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thanks, Senator Sullivan.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Once again, welcome.
    Mr. O'Donnell. Thank you.
    Senator Cardin. Thank you for your willingness to take on 
this responsibility. As many of us have said, we really do want 
to have an independent Inspector General that will be 
supported. It is frustrating that when we look at some of the 
activities that have taken place within EPA, and the actions of 
the Inspector General, we need more transparency, we need more 
enforcement, we need more ability for us to work in closer 
concert.
    Let me just give you one example. The two for one executive 
order that was issued, the Inspector General found that in 
fact, that order was not as transparent as it should be, was 
not being implemented the way it should have been, made certain 
recommendations. As I understand, those recommendations are 
still unresolved.
    So I guess my first question to you, it is one thing to 
find areas that need to be improved. But what do you do if the 
agency doesn't respond? How do you enforce your 
recommendations? What steps would you take to make sure that 
your recommendations are not only adhered to, but if they are 
not, that there is a process which you can carry out your 
responsibilities to inform, particularly Congress?
    Mr. O'Donnell. Senator, I see every IG office as having 
effectively three customers. The first is the head of the 
agency. Really, these audits can inure to the benefit of those 
heads of the agencies, if they are willing to accept and listen 
to the Inspector General.
    Another important customer are the American taxpayers and 
the public. The publishing of audits, I think, has a tremendous 
effect on the agencies. I agree with you, transparency is 
important. In everything I do, I believe that we should be as 
transparent as possible. Because as I have said before, when we 
are not, even if what we are doing is law abiding, people will 
assume the worst, and that undermines at least the perception 
of integrity at the agency.
    And then the third customer, Senator, of course, is 
Congress. I think that the IG Act provides specific remedies, 
if you will, for reporting these instances, these failures to 
act on recommendations, whether it is semi-annual reports or 
audits, to Congress. I think that is probably one of the most 
important avenues available to the IG's office.
    Senator Cardin. You mentioned the three--the agency, 
hopefully, you have a working relationship so they understand 
the concerns and they implement. If they don't, the 
transparency with the public operates as a check and balance, 
and the formal notification of Congress is critically 
important.
    I might point out, sometimes it gets lost in the process, 
and that there needs to be an aggressiveness in the IG's office 
to make sure that the underlying reasons for the report are 
understood and accountability is there. So it sometimes takes 
more than just the legal requirements that you have by statute, 
but there is a mission that you have to make sure that we have 
that independence and that it is understood when there are a 
lot of conflicting issues within the agency and public 
attention and Congress.
    So I just urge you to recognize that you have friends here 
on Capitol Hill, you have friends in the advocacy community. 
You don't want to be tied up in the politics of what we are 
doing here. But you are a factual determinant, and you want to 
make sure that that information gets the type of attention that 
it needs. That is going to require some courage and some 
innovation on your part to make sure in this environment that 
information can get out to the public and to the Congress. But 
first, the agency. And hopefully the agency--there are a lot of 
good professionals that want to do the right thing, and it is 
carried out in that regard.
    So I wish you well. I thank you again for your willingness 
to serve.
    Mr. O'Donnell. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Mr. O'Donnell, welcome.
    Among the responsibilities of an Inspector General are to 
investigate, protect against, simple defalcations, people 
taking stuff home that doesn't belong to them, you will have no 
hesitancy pursuing those sorts of matters?
    Mr. O'Donnell. No, Senator.
    Senator Whitehouse. Another issue for Inspectors General is 
to review the administration or maladministration of programs 
and of grants. Will you have any hesitancy in doing your duty 
with respect to those types of concerns as Inspector General?
    Mr. O'Donnell. No, Senator.
    Senator Whitehouse. Another concern is the, while you are 
not a judge reviewing an individual rulemaking, say, if there 
were systematic or regular Administrative Procedures Act 
violations that affected the integrity of the agency, would you 
have any hesitancy of exerting your Inspector General 
responsibilities to address those sorts of problems?
    Mr. O'Donnell. No, I think that would be appropriate, 
Senator.
    Senator Whitehouse. And because it is EPA, and because 
there are very, very big polluting interests who are constantly 
engaged with that agency, it is possible that you might embark 
on inquiries that create consternation among very big 
interests. Would you have any hesitancy in pursuing your duty 
against the wishes or the pressure of very big outside 
interests?
    Mr. O'Donnell. Senator, I have been doing that with respect 
to international financial institutions for many years. I don't 
think I have any hesitation with any other.
    Senator Whitehouse. Short answer is no?
    Mr. O'Donnell. No.
    Senator Whitehouse. Great. Will you remain a member of the 
Federalist Society in your Inspector General position, and if 
so, will you give the Federalist Society any special 
consideration should it take views on issues that are before 
you?
    Mr. O'Donnell. Senator, I am not a member of the Federalist 
Society. But I wouldn't give anyone any special consideration. 
I think it is important that all opinions be taken on their 
face, based on their validity.
    Senator Whitehouse. And you serve now in the Department of 
Justice, which is a place I also had the great honor to serve. 
In the Department of Justice, there is an Office of 
Professional Responsibility that is separate from the Inspector 
General that oversees the conduct or misconduct, as lawyers of 
lawyers in the Department of Justice. What is your role at EPA 
with respect to misconduct by lawyers in the EPA office, given 
that there is no OPR there?
    Mr. O'Donnell. I believe that the office will effectively 
have something akin to that role of OPR that you speak of at 
DOJ.
    Senator Whitehouse. The Inspector General office will?
    Mr. O'Donnell. Yes.
    Senator Whitehouse. So that would be something you would 
oversee, and you would have no hesitancy about pursuing 
problems with regard to lawyers?
    Mr. O'Donnell. Absolutely not. Being members of the bar, I 
think we need to be held to a higher standard. So absolutely 
not.
    Senator Whitehouse. And finally, thank you for your use of 
one of my favorite quotations from Justice Oliver Wendell 
Holmes, I love the turning square corners analogy.
    Mr. O'Donnell. Yes.
    Senator Whitehouse. I think it has a lot of bearing, as you 
point out, both for how the regulated entities must behave when 
they are dealing with the Government, but also to how the 
regulator must behave in making sure that they are doing things 
right, because they are, at the end of the day, accomplishing a 
larger and more important public purpose than just engaging 
with a particular industry.
    Mr. O'Donnell. Absolutely.
    Senator Whitehouse. Thanks.
    Mr. O'Donnell. Thank you.
    Senator Whitehouse. Good luck.
    Mr. O'Donnell. Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you to your family who are here supporting you today. 
It is a big day to come to DC. You must be very proud of your 
dad, and you are very kind to give him the support he needs on 
this big day.
    Mr. O'Donnell, as you know, the EPA Inspector General acts 
as an independent authority for the EPA, charged with 
protecting the integrity of the agency by exposing misconduct 
and ensuring that the agency and its leaders are following the 
law. As such, it is absolutely critical that you personally 
uphold the highest levels of integrity and transparency.
    If confirmed, will you conduct your investigations without 
the influence of political appointees at EPA, the White House, 
or any other Federal agency?
    Mr. O'Donnell. Absolutely, Senator.
    Senator Gillibrand. Do you intend to seek any waivers or 
regulatory exemptions to engage in any matters for which you 
have a potential conflict of interest as described in your 
ethics agreement?
    Mr. O'Donnell. No.
    Senator Gillibrand. Over the last 2 years, the Office of 
Inspector General has been asked to launch several 
investigations into EPA's leadership after receiving credible 
allegations of ethics violations and abuses of power. However, 
it appears that the Inspector General stopped his work on these 
investigations once the targets resigned from their positions 
and before the investigations could be completed, resulting in 
the Inspector General stating that the investigations were 
inconclusive.
    This practice of abandoning investigations when the target 
resigns is troubling. If confirmed, will you commit to pursuing 
justice in conducting full investigations to their conclusive 
ends?
    Mr. O'Donnell. Yes.
    Senator Gillibrand. Thank you.
    Will you commit to reversing this malpractice of 
abandonment and ensure that these investigations are completed, 
even after the targets have resigned from their positions, in 
order to ensure there is full accountability?
    Mr. O'Donnell. Senator, I have every intention of doggedly 
pursuing truth regardless of the availability of witnesses.
    Senator Gillibrand. And how do you plan to address these 
matters, if confirmed?
    Mr. O'Donnell. Senator, I think I bring a tremendous amount 
of experience in how to conduct investigations, and the Office 
of Inspector General has an Office of Investigations. It is one 
I will be working with closely, sharing with them my views, 
maybe some insight; they are all professionals and know what to 
do. I am hoping that maybe they will feel empowered because of 
my history of investigations to follow that pattern of dogged 
truth seeking.
    Senator Gillibrand. Well, I wish you all the best and many 
blessings in your new job.
    Mr. O'Donnell. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Carper.
    Senator Carper. Let me just bring up an issue that has sort 
of reared its head in the last several days, and see if you 
would take a shot at it, please. It one of the issues that many 
of us on this Committee care about deeply, and it is reducing 
greenhouse gas emissions in general on our planet, but 
particularly in the transportation sector, but doing so in a 
way that creates economic opportunity and jobs.
    Recently, four automakers entered into an industry 
agreement with California to reduce their exhaust emissions, as 
you may know. Our President was not happy with this deal, and 
as soon as he tweeted out his anger, EPA started to send the 
State of California aggressive letters threatening them with 
loss of highway funding and other air and water violations.
    Do you agree that the question of whether the EPA political 
leadership followed the President's directions and abused their 
powers is something that an IG should at least look at?
    Mr. O'Donnell. Senator, I am not privy to that specific 
instance. I am not in the EPA yet. But I can say that instances 
where statutory or regulatory authority are being abused for 
political ends would be something worthy of an Inspector 
General's investigation.
    Senator Carper. Thank you.
    I think you said that your children are ages 7, 9, 11, and 
13.
    Mr. O'Donnell. Yes, Senator.
    Senator Carper. When you think about our environment, what 
do you see as maybe the greatest threat to this earth that they 
are going to inhabit for the next 80, 90 years?
    Mr. O'Donnell. Senator, I think that those threats include 
pollution to water, pollution to the land.
    I had an opportunity while in the Civil Fraud section to 
meet with our honeybee producers, who are pretty put upon by 
Chinese importers who evade our duties. They talked about how, 
in China, the land there is so polluted that they have to go to 
other countries to grow their food. It is a national security 
issue almost for them.
    I would be concerned about that here, too, that our water 
has become so dirty and our land become so polluted that we can 
no longer function as a society on our own.
    Senator Carper. Our sons are 29 and 31. One lives in New 
York City; the other lives in California, San Francisco. Just 
north of San Francisco, they are having wildfires that feature 
hurricane force winds.
    I used to live in California, not far from there, when I 
was a naval flight officer. I don't recall ever witnessing 
hurricane force winds or wildfires like this. Do you think 
something is going on there?
    Mr. O'Donnell. Senator, it is terrifying what is happening 
there. I remember, I think we were in Washington State, eastern 
Washington 2 years ago and there was a tremendous forest fire 
there that had blanketed the sky and made it difficult to 
breathe.
    Senator Carper. What State do you live in?
    Mr. O'Donnell. I live in Maryland now, but I am originally 
from Washington State.
    Senator Carper. Ever heard of a place called Ellicott City 
in Maryland?
    Mr. O'Donnell. Yes.
    Senator Carper. For your children, there is a term that is 
called like a 100-year flood, that means it is a flood that is 
severe enough that it occurs about every 100 years, and maybe 
another 100 years later you would get another one like that. 
There is also a term called a 1,000-year flood, which means 
that it is a flood that is so bad, like Noah's Ark, so bad that 
it only happens about every thousand years.
    Ellicott City, which is not too far from where your family 
lives, has experienced two 1,000-year floods in an 18-month 
period. Two thousand-year floods in an 18-month period. Do you 
think something is going on there?
    Mr. O'Donnell. It strikes me as a statistical anomaly, 
Senator, and although I am not a scientist, it does certainly 
seem like something is happening.
    Senator Carper. All right. Let me close with this question. 
If you were to go to your--I go to schools all the time, 
Senator Barrasso goes to schools all the time, we have 
assemblies with kids young and old--not really old, but young 
and older. When I go to schools, 7 year olds, 9 year olds 
especially, they ask questions and say, what do you do? And I 
explain that along with Senator Barrasso and 98 other Senators, 
I help make the rules for the country.
    And I say, do you have rules in your school, do you have 
rules on your bus, do you have rules at home? They say, yes. 
And I say, we have rules for our country, we call them laws. I 
get to help make them, with 99 other Senators, 435 
Representatives, a President and Vice President.
    Sometimes they will say, what else do you do? And I will 
say, I try to help people. And one of the best ways you can 
help somebody is to make sure they have a job.
    We don't create jobs here, and I didn't create jobs when I 
was Governor. But a lot of jobs were created, and we helped 
create a nurturing environment for job creation, so that when 
entrepreneurs start a business, they can be successful.
    If you are in a class of 7 year olds or 9 year olds and 
they ask you, what do you do, if you are confirmed for this 
position, how would you describe it to them in words that they 
could understand?
    Mr. O'Donnell. I would tell them that my job is to help the 
EPA make our environment better and protect our public health 
by pointing our problems and highlighting solutions.
    Senator Carper. Is that it?
    Mr. O'Donnell. I could certainly tell them about waste, 
fraud, and abuse. But I have coached children that age, and I 
can barely have 1 minute of talking to them before they are 
throwing dirt at me.
    [Laughter.]
    Mr. O'Donnell. So I accept that my explanations always must 
be very concise.
    Senator Carper. All right. Well, thanks very much again. It 
was a pleasure meeting your family. I didn't know that was your 
dad sitting back there.
    Mr. O'Donnell. Yes, I had mentioned my father is a big fan 
of Senator Biden's.
    Senator Carper. Well, that's great. So are we. When you 
think of where your values came from to guide your life, what 
are the sources of those values?
    Mr. O'Donnell. Obviously, Senator, they come from my faith, 
my upbringing. I grew up in a working class family, and learned 
the dignity of work. You spoke of jobs and how important jobs 
are, the dignity of work.
    My mother has passed away, she was very helpful. One of the 
most peculiar persons you will ever meet, but one of the most 
giving.
    Senator Carper. Good. Sounds like a mom I once knew. All 
right. Thanks so much.
    Mr. O'Donnell. Thank you.
    Senator Barrasso. Thanks, Senator Carper.
    Just following up a little bit with what Senator Sullivan 
was talking about, with Gina McCarthy, previous Administrator 
of the EPA. Many of us on our side of the aisle felt that she 
had abused her power to say the ends justified the means.
    Mr. O'Donnell. Yes.
    Senator Barrasso. Coming out with a number of regulations 
that we felt clearly were illegal. And she was going to depend 
upon the inefficiency of the courts, so that people would have 
to comply with those regulations until the court finally--well, 
3 years later. And then by then, as she would say, the results 
were obtained, and I would say the damage was done in terms of 
lost jobs and opportunities.
    It is a continuing area of concern for people on both sides 
of the aisle, when people in power use that to say that 
justifies the means of what they have accomplished. So you may 
want to visit with Senator Sullivan about that, and realize it 
can go both ways.
    Mr. O'Donnell. I understand, Senator. And you know, all of 
us at the Department of Justice, particularly those who do 
white collar prosecutions, are intimately familiar with what 
happened with Arthur Andersen, and the consequences that can 
happen when we act what could appear to be cavalier. So while I 
might seem careful with my words, it is absolutely my 
conviction that in the exercise of authority, we need to temper 
justice with mercy and appropriate other controls.
    Senator Barrasso. Well, thank you again. Congratulations to 
you and to your family. We look forward to your additional 
service for our country. Thank you.
    Mr. O'Donnell. Thank you, Senator.
    Senator Barrasso. Before you leave, I forgot to mention, 
there will be additional questions submitted to you. So we ask 
that you respond to the questions by 4 p.m., Thursday, November 
7th.
    I want to thank you, and I have a couple things I am going 
to introduce into the record, without objection.
    [The referenced information follows:]
    
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. With that, the hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
